ftdkmeivjT -A

Appealdfy - A
No. 20-2080

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ANTHONY D. JONES,
Petitioner-Appellant,

)
)

v.

)
)
)

MICHELLE FLOYD, Warden,

)
)

Respondent-Appellee.

Jul 20, 2021
DEBORAH S. HUNT, Clerk

ORDER

)
)

Before: SUTTON, Chief Judge; SILER and ROGERS, Circuit Judges.
Anthony D. Jones, a Michigan prisoner, petitions for rehearing of our May 27, 2021, order
denying his motion for a certificate of appealability. We have reviewed the petition and conclude
that this court did not overlook or misapprehend any point of law or fact in denying Jones’s motion
for a certificate of appealability. See Fed. R. App. P. 4(¥a¥2T
Accordingly, the petition for rehearing is DENIED.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

-8

(2 of 4)

No. 20-2080

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ANTHONY D. JONES,
Petitioner-Appellant,
v.
MICHELLE FLOYD, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)

May 27, 2021
DEBORAH S. HUNT, Clerk

ORDER

X
)'

Before: BATCHELDER, Circuit Judge.
Anthony D. Jones, a Michigan prisoner proceeding pro se, appeals the district court’s
judgment denying his 28 U.S.C. § 2254 petition for a writ of habeas corpus. Jones has filed an
application for a certificate of appealability (COA) and a motion for appointment of counsel.
In four separate cases consolidated for trial, a jury found Jones guilty of two counts of
second-degree criminal sexual conduct, two counts of third-degree criminal sexual conduct, and
one count of fourth-degree criminal sexual conduct. See People v. Jones, Nos. 333572, 335157,
2018 WL 442322, at *1 (Mich. Ct. App. Jan. 16, 2018) (per curiam). The trial court sentenced
Jones to eight to twenty-years of imprisonment. The Michigan Court of Appeals affirmed the
judgment. Id. The Michigan Supreme Court denied leave to appeal, People v. Jones, 911 N.W.2d
804 (Mich. 2018) (mem.), and Jones’s subsequent motion for reconsideration, People v. Jones,
917 N.W.2d 385 (Mich. 2018) (mem.).
Jones filed a petition for a writ of habeas corpus in state court, asserting that the felony
complaint was invalid because it was not signed by the complaining witness in front of a judicial
officer and that therefore all of the subsequent proceedings were void. The trial court denied the
petition and Jones’s subsequent motion for reconsideration, and both the Michigan Court of
Appeals and the Michigan Supreme Court denied leave to appeal. —

/■

~~

""

- 0
No. 20-2080
-2-

In September 2020, Jones filed a § 2254 petition in the district court. He argued that the
trial court lacked jurisdiction and that his convictions are void because the felony complaint was
...

not signed under oath by the victims or someone with personal knowledge of the alleged crimes.
Jones further claimed that Michigan. Court of Appeals and the Michigan Supreme Court
erroneously denied leave to appeal the denial of his state habeas corpus petition without any
explanation. Pursuant to Rule 4 of the Rules Governing § 2254 Cases, the district court summarily
dismissed the petition, finding that Jones’s claims failed to establish a constitutional violation. The
court declined to issue a COA.
To obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.”

28 U.S.C. § 2253(c)(2).

To satisfy this standard, a petitioner must

demonstrate “that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
Rule 4 provides that the court’ should promptly examine a petition to determine “[i]f it
plainly appears from the petition and any attached exhibits that the petitioner is not entitled to
relief.” Rules Governing § 2254 Cases, Rule 4. If the district court determines that the petitioner
is not entitled to relief, the court shall summarily dismiss the petition. McFarland v. Scott, 512
U.S. 849, 856 (1994).
Jones’s claims were based on his assertion that the felony complaint did not comply with
Michigan state law and that thus the state court lacked jurisdiction over his criminal prosecution.
As the district court explained, he cannot obtain habeas relief based on the state court’s lack of
subject-matter jurisdiction because “a state court’s interpretation of state'jurisdictional issues
conclusively establishes jurisdiction for purposes of federal habeas review.” Strunk v. Martin, 27
F. App’x 473, 475 (6th Cir. 2001); see Wills v. Egeler, 532 F.2d 1058, 1059 (6th Cir. 1976). And
he cannot obtain habeas relief based on the argument that the felony complaint violated Michigan
statutory law and the state constitution because “federal habeas corpus relief does not lie for errors
of state law.” Estelle v. McGuire, 502 U.S. 62, 67 (1991) (quoting Lewis v. Jeffers, 497 U.S. 764,

flppcNdi* ~ &
Case 2:20-cv-12682-SFC-KGA ECF No. 5 filed 10/14/20

PagelD.80

Page 1 of 6

- Q.
I
I
!

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
ANTHONY D. JONES, # 193539,
Petitioner,

Case Number: 2:20-CV-12682
HONORABLE SEAN F. COX

v.
MICHELLE FLOYD,
Respondent.
OPT NT ON AND OttDF.R DENYING PETITION FOR WRIT OE.
WARff AS CORPUS AND DENYING A CERTIFICATE OF APPEALABILITY
Michigan state prisoner Anthony D. Jones filed a habeas petition under 28 U.S.C.
§ 2254. He challenges his convictions for two counts of second-degree criminal sexual
conduct, Mich. Comp. Laws § 750.520c(l)(a), two counts of third-degree criminal sexual
conduct, Mich. Comp. Laws § 750.520d(l)(a), and one count of fourth-degree criminal
sexual conduct, Mich. Comp. Laws § 750.520(e)(1)(a). Petitioner seeks habeas relief on
the grounds that the trial court lacked jurisdiction because of detects in the criminal
complaint and warrant and the Michigan appellate courts erred in deciding his post­
conviction appeals. For the reasons set forth, the Court denies the petition and declines to
issue a certificate of appealability.
1.

Background
Petitioner was convicted in Wayne County Circuit Court of multiple counts of

criminal sexual conduct. See People v, Jones, No. 333572, 2018 WL 442322, at * 1

~ (*L
Case 2:20-cv-12682-SFC-KGA ECFNo. 5 filed 10/14/20

PagelD.81

Page 2 of 6
j

(Mich. Ct. App. Jan. 16.2018). He was convicted and sentenced to 8 to 22 years for each
of the convictions, to be served concurrently. Petitioner f.led an appeal of right in the
Michigan Court of Appeals, which affirmed his convictions . Id. The Michigan Supreme
Court denied leave to appeal. People v. Jones, 501 Mich. 1093 (2018), recons, denied,
503 Mich. 862 (2018).
Petitioner later filed a state petition for writ pf habeas corpus in the Jackson
County Circuit Court, arguing that his convictions are void because the complaining
witness did not sign failed to sign the felony complaint. The state Court denied the
motion. See Jones v. Floyd, No. 19-2697 (Jackson Cty. Cir. Ct. Oct. 23,2019) (ECF No.
1, PageID.41-42). The Michigan Court of Appeals denied Petitioner’s application foi
leave to appeal. Jones v. Cooper Street Corr. Facility, No. 353026 (Mich. Ct. App. May
18,2020) (ECF No. 1, PageID.39). The Michigan Supreme Court also denied leave to
appeal.

Jones v. Cooper Street Corr. Facility, 947 N.W.2d 796 (Mich. Sept, 8, 2020).
Petitioner then filed this habeas corpus petition raising the following claims:

II.

I.

Did the lower habeas corpus court commit a palpable error and abuse
its discretion [by failing to require the trial court to properly obtain
jurisdiction over Petitioner]?

II

Did the Michigan Court of Appeals abuse its discretion [by
neglecting to explain its denial of Petitioner’s application for leave to
appeal]?

Standard of Review
Upon the filing of a habeas corpus petition, the court must promptly examine the

petition to determine “if it plainly appears from the face of the petition and any exhibits
2

i

AlUc-hmE^-i - Cl
Case 2'.20-cv-12682-SFC-KGA ECF No. 5 filed 10/14/20 PagelD.82

Page 3 of 6

annexed to it that the petitioner is not entitled to relief.” Rule 4, Rules Governing Section
2254 cases. If the court determines that the petitioner is not entitled to relief, the court
shall summarily dismiss the petition. McFarland v. Scott, 512 U.S. 849, 856 (1994)
(“Federal courts are authorized to. dismiss summarily any habeas petition that appears
legally insufficient on its face”) The habeas petition does not present grounds which
may e

stablish the violation of a federal constitutional right. The petition will be

dismissed.
A state prisoner is entitled to a writ of habeas corpus only if he can show that the
state court’s adjudication of his claims (1)
resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2)
resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
Court proceedings.
28 U.S.C. § 2254(d).
“A state court’s determination that a claim lacks merit precludes federal habeas
relief so long as ‘fairminded jurists could disagree’ on the correctness of the state court’s
decision.” Harrington v. Richter, 562 U.S. 86,101 (2011) (quoting Yarborough v.
Alvarado, 541 U.S. 652,664 (2004)). Additionally, a state court’s factual determinations
are presume d correct on federal habeas review, 28 U.S.C. § 2254(e)(1), and review is
“limited to the record that was before the state court. ” Cullen v. Pinkolster, 563 U.S. 170,
181(2011).
3

■

!

Case 2:20-cv-12682-SFC-KGA ECF No. 5 filed 10/14/20

PagelD.83

Page 4 of 6
5

III.

Discussion
A.

Jurisdiction of State Trial Court

In his first claim, Petitioner argues that a radical jurisdictional defect rendered the
trial court without jurisdiction, He bases this claim on alleged deficiencies in the criminal
complaint and warrant.
“‘[Fjederal habeas corpus relief does not lie for errors of state law.’” Estelle v.
McGuire, 502 U.S. 62, 67 (1991), quoting Lewis v. Jeffers, 497 U.S. 764, 780 (1990).
Habeas review “is limited to deciding whether a conviction violated the Constitution,
laws, or treaties of the United States,” and does not encompass reexamining state-court
determinations of state-law issues. Id. at 68. The determination whether a state court had
jurisdiction under state law is properly made by the state courts, not the federal judiciary.
Wills v. Egeler, 532 F .2d 1058, 1059 (6th Cir. 1976). See also Poe v. Caspari, 39 F.3d
204, 207 (8th Cir. 1994) (“Jurisdiction is no exception to the general rule that federal
courts will not engage in collateral review of state court decisions based on state law: The
adequacy of an information is primarily a question of state law and we are bound by a
state court’s conclusion respecting jurisdiction.. . This determination ofjurisdiction is
binding on this [federal] court.”) (internal quotation omitted),
Petitioner’s claim fails to establish a constitutional violation. The Court finds no
basis for granting habeas relief on this claim.
B.

State Court Habeas Corpus Proceeding

Petitioner’s second claim concerns the state courts’ handling of his petition for
4

ft-H-ft-cKfn&N-l - (S
filed 10/14/20
Case 2:20-cv-12682-SFC-KGA ECF No. 5

PagelD.84

Page 5 of 6
!

state habeas relief. First, Petitioner argues that the Michigan Court of Appeals fallute to
provide an ex

planation for denying his application for leave to appeal was an abuse of

discretion. There is no constitutional requirement that a state court decision must be
accompanied by an explanation. Harrington v. Richter, 562 U.S. 86, 98 (2011), A
federal court may grant habeas relief‘“only on the ground that [a petitioner] is in custody
Wilson v.
in violation of the Constitution or laws or treaties of the United States
Corcoran, 562 U.S. 1, 5 (2010), quoting 28 U.S.C. § 2254(a) . Because a state court is not
constitutio

pally required to provide reasons for its decision, the Court finds no violation

of the Constitution or federal law.
Second, Petitioner ar

gues that the Michigan Supreme Court improperly labeled his

application for leave to appeal a “delayed” application,

The Court “must accept as valid a

state court’s interpretation of the ... rules of practice of that state
F.3d 888, 897 (6th Cir. 2008)

Cristini v. McKee, 526

The Court will not reexamine the state court s

characterization of the application for leave to appeal because the determination was
based upon the state court’s interpretation of Michigan rules of practice.
In addition, Petitioner’s claim alleges

deficiencies during the state-court collateral

review process, rather than deficiencies in the direct review process
proceedings

“are not constitutionally required” so deficiencies in state post-conviction

proceedings may not form the basis

for habeas corpus relief. Murray v. Giarrafano, 492

U.S. 1, 10 (1989). Habeas relief is denied on this claim.
IV.

. State court collateral

Certificate of Appealability
5

&

Case 2:20-cv-12682-SFC-KGA ECF No. 5 filed 10/14/20

PagelD.85

Page 6 of 6

Federal Rule of Appellate Procedure 22 provides that an appeal may not proceed
unless a certificate of appealability (“COA”) is issued under 28 U.S.C. § 2253. A COA
may be issued “only if the applicant has made a substantial showing of the denial of a
constitutional right.” 28 U .S.C. § 2253(c)(2). A petitioner must show “that reasonable
jurists could debate whether (or, for that matter, agree that) the petition should have been
resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000)
(citation omitted). In this case, the Court concludes that reasonable jurists would not
debate the conclusion that the petition fails to state a claim upon which habeas corpus
relief should be granted. Therefore, the Court will deny a certificate of appealability.
V.

Conclusion
The petition for a writ of habeas corpus and a certificate of appealability are

DENIED and the matter is DISMISSED WITH PREJUDICE.
SO ORDERED.
s/Sean F. Cox
SEAN F. COX
UNITED STATES DISTRICT JUDGE
Dated October 14, 2020

6

S

Case 2:20-cv-12682-SFC-KGA ECF No. 13, PagelD.227 Filed 02/09/21 Page 1 of 3

-0
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
ANTHONY D. JONES, # 193539,
Petitioner,

Case Number: 2:20-CV-12682
HONORABLE SEAN F. COX

v.
MICHELLE FLOYD,
Respondent.

OPINION AND ORDER DENYING PETITIONER’S
MOTION FOR CERTIFICATE OF APPEALABILITY (ECF No. 1D
Petitioner Anthony D. Jones has appealed the Court’s opinion and judgment denying his
pro se petition for the writ of habeas corpus. The habeas petition challenged Petitioner’s
Michigan convictions for two counts of second-degree criminal sexual conduct, Mich. Comp.
Laws § 750.520c(l)(a), two counts of third-degree criminal sexual conduct, Mich. Comp. Laws
§ 750.520d(l)(a), and one count of fourth-degree criminal sexual conduct, Mich. Comp. Laws §
750.520(e)(1)(a). Petitioner sought habeas relief on these grounds: (i) the trial court lacked
jurisdiction because of defects in the criminal complaint and warrant; and (ii) the Michigan
appellate courts erred in deciding his post-conviction appeal. The Court found no merit in these
claims and denied the petition. Currently before the Court is Petitioner’s motion for a certificate
of appealability.
The Court declined to grant a certificate of appealability (COA) at the same time the
Court denied the petition. So the Court construes Petitioner’s current motion for a COA as a
motion for reconsideration. Motions for reconsideration may be granted when the moving party
-shows-(-l-)a—palpabledefeGt,-—(2)-by-whiGh-the-court-and-the-parties-were-misled^and-(3)-the__

Case 2:20-cv-12682-SFC-KGA ECF No. 13, PagelD.228 Filed 02/09/21 Page 2 of 3

f)Hpr<y\ m

-£>

correction of which will result in a different disposition of the case. E.D. Mich. L.R. 7.1(h)(3).
A “palpable defect” is a “defect which is obvious, clear, unmistakable, manifest or plain.” Olson
v. The Home Depot, 321 F. Supp. 2d 872, 874 (E.D. Mich. 2004).
Petitioner seeks a COA for the two claims raised in his habeas petition. The Court
denied Petitioner’s challenge to the adequacy of the state criminal complaint and warrant
because the claim challenged a state-court determination on a state-law issue. Estelle v.
McGuire, 502 U.S. 62, 68 (1991). In his second claim, Petitioner challenged the state courts’
handling of his post-conviction appeals. This claim was denied because, like Petitioner’s first
claim, it raised only alleged violations of state law.
Petitioner fails to show that the Court made an obvious, clear, unmistakable, manifest, or
plain error in denying his habeas claims. His motion simply reasserts arguments advanced in his
petition. A motion which presents the same issues already ruled upon by the Court does not
allege sufficient grounds for reconsideration. See E.D. Mich. L.R. 7.1(h)(3) (“[T]he Court will
not grant motions for rehearing or reconsideration that merely present the same issues relied
upon by the Court, either expressly or by reasonable implication.”). The Court will deny
reconsideration.
Petitioner also states that he received ineffective assistance of counsel. (ECF No. 11,
PageID.209.) This claim was not raised in the petition and it is unclear whether Petitioner
intends to assert ineffective assistance of counsel as a new claim or a new basis for a COA. To
the extent that he seeks a COA on this claim, the request is denied because the claim was not
raised in the petition. To the extent that Petitioner asserts this claim as a new basis for habeas
corpus relief, the claim is comparable to a second or successive petition. The Court has no

2

Case 2:20-cv-12682-SFC-KGA ECF No. 13, PagelD.229 Filed 02/09/21 Page 3 of 3

-‘l)
jurisdiction to adjudicate a second or successive petition unless the Sixth Circuit Court of
Appeals authorizes the filing of a second or second petition. See 28 U.S.C. § 2244(b)(3)(A);
Burton v. Stewart, 549 U.S. 147, 149, 157 (2007) (concluding that the District Court lacked
jurisdiction to entertain a state prisoner’s second or successive habeas petition challenging
custody because the petitioner failed to comply with the gatekeeping requirements of § 2244(b)
and neither sought, nor received, authorization from the Court of Appeals before filing the
petition). Because Petitioner has not received permission from the Court of Appeals to file a
second or successive petition raising this claim, the Court lacks authority to address the merits of
the new claim.
Accordingly, for the reasons states, the Court DENIES Petitioner’s Motion to Grant
Certificate of Appealability (ECF No. 11).

s/Sean F, Cox
SEAN F. COX
UNITED STATES DISTRICT JUDGE
Dated: February 9, 2021

3

ftppExdiy, - 6L

fHiftcWg'N-jr-

Order

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

September 8, 2020

ChiefJustice

David F. Yiviano,
ChiefJustice Pro Tem

161414 & (26)

'

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
• Megan K. Cavanagh,

ANTHONY D. JONES,
Plaintiff-Appellant,

SG: 161414
COA: 353026
Jackson CC: 19-002697-AH

V

COOPER STREET CORRECTIONAL
FACILITY WARDEN,
Defendant-Appellee.

On order of the Court, the motion to supplement is GRANTED. The application

by this Court.

I Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing isatrue and complete copy of-the-order entered at the direction.of the Court.
September 8,2020
Clerk

Justices

!

RlWhfngj\lT - f~ i

ftpptWdW - j_)

\
«

i

Court of Appeals, State of Michigan
ORDER
Anthony D Jones v Cooper Street Correctional Facility Warden

Douglas B. Shapiro
Presiding Judge
Jane M. Beckering

Docket No.

353026

LCNo.

19-002697-AH

James Robert Redford
Judges

The COVID-19 emergency motion for personal appeal bond is DENIED.
The delayed application for leave to appeal is DENIED.

Presiding Judger

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

MAY 1 8 2020
Date

Chiel

v ',:
STATE. OF MICHIGAN
IN. THE CIRCUIT COURT FOR THE ;COUNTY OF JACKSON
t

ANTHONY D. JONES #193539,

.
Case No. 19-2697-AH

Petitioner,

Hon. Thomas B. Wilson

v
MS. M. FLOYD (^VOTING WARDEN)
•••

....

Respondent. .

. ANTHONY D. JONES #193539
Cooper Street Correctional Facility
3100 Cooper St
Jackson, MI 49201

.

MS. M. FLOYD (ACTING WARDEN)
Cooper Street Correctional Facility
3100 Cooper St
'
Jackson, MI 49201
,

ORDER FOLLOWING WRIT OF HABEAS. CORPUS
Petitioner in this matter has filed a petition for a Writ of Habeas Corpus. This writ
is used “to determine, the legality of the restraint under which a person is held [and] deals
with, radical defects, [in jurisdiction] that render a judgment or proceeding absolutely
void.” Moses'v. Dep't ofCorr., 274 Mich. App. 481, 485 (2007). If there is no legal basis
for the detention, the judge must order that the detainee be released. See Hinton v. Parole
Bd., 148 Mich. App. 235, 244 (1986).
Petitioner alleges that the complaining witness must sign the felony, complaint in
front of a judicial officer for it to be valid .and as his was not signed by the complaining
witness it is therefore invalid and all of the proceedings, that occurred afterwards leading
to his conviction are void. This Court disagrees! . ,
MCL 764.1(a)(2) states that a finding of reasonable cause by the magistrate,
giving authority to issue a warrant, shall be based upon 1 or more of the following: “(a)
factual allegations of the complainant contained in the complaint, (b) the; complainant’s
sworn testimony, (c) the complainant’s affidavit., (d).any supplemental sworn testimony
of the complainant or other individuals presented by the complainant or required by the
magistrate.” Petitioner fails to present any evidence that the magistrate did not base his
findings on 1 or more of the following circumstances listed in the statute.

■I

■

Furthermore, MCR 6.101 states that the complaint must be signed and sworn to
efoie a judicial officeror court clerk, which was done so by the prosecutor’s office,
satisfying the court rule. Nowhere in the statue or the court rule does it state that the
complaining witness must sign the complaint for it to be valid.
Therefore, jthe petition for Writ of Habeas Corpus is hereby DENIED.
IT IS SO ORDERED this JUT day of October, 2019.
!
6
.

S

■

Certificate of Service:

8
!
- J I hereby certify that a copy, of this order

was sent to the parties via U.S. inail
this £3 day of October. 7.014
S±£l^<? ^ I
Brittany Law-Court Officer I

•

:•

/sf
L——■—'"N'
i

HONORABLE THOMAS D. WILSON
CIRCUIT COURT JUDGE

;

r;

i

i

;
\

j

!

/

( a
. \d.

STATE OF MICHIGAN

complaint

___________ 2015711201
CASENOs 2015711201~

;S i/■

FELONY

36TFI DISTRICT COURT DETROIT
3rd Judicial Circuit

•I CJ u
Offense Infor-nhation

The People of the State of Michigan

t) 0 / J

Police Agency / Report No.
82DPSC 1501280078

vs

ANTHONY DEAN JONES 82-15711201-01

■

Date of Offense
JAN 2015 CDG
Place.of Offense
14475 CHELSEA, DETROIT
Complainant,or Victim

mercedes-'oEshields
Complaining Witness
INFO AND BElilEF
STATE OF MICHIGAN, COUNTY OF WAYNE
The complaining witness says that on the date and the location stated above';, fijie defendant, contrary to law,
COUNT 1: CRIMINAL SEXUAL CONDUCT - FIRST DEGREE (DURING FELjONY)
fid engage in sexual penetration to-wit: FINGER IN GENITAL OPENING wjth.MERCEDES DESHIELDS, under
drcumstances involving the commission of another felony, to-wit: HOME INVASION; contrary to MCL 750.520b(1)(c).
750.520B1 C]
BOFtA NOTICE
•
This is a Tier III Offense under the.Sex Offender Registration Act (SORA)' MCL 28.722(w)(iv).
JIV/STD TESTING NOTICE
Take notice that pursuant to MCL 333.5129, upon bindover to circuit court pr> recorder's court, the district court judge shall
)rder the defendant to be tested for venereal disease, hepatitis B infection, andfor the presence of HIV or an antibody to HIV if
he judge determines there is reason to believe the violation involved sexual penetration or exposure to a body fluid of the
Jefendant. If the district judge determines that testing is not required, upon conviction, the court must order the defendant to be
ested.
'
rELONY: Life or any term of years; mandatory lifetime electronic monitoring; niandatory AIDS/STD testing; DNA to be taken
ipon arrest The Court may impose a consecutive sentence under MCL 750.520b(3).
5ECOND OFFENSE NOTICE
And it further appearing that on 4/2/88, said defendant was previously conVibted of MCL 750.520B1 A, in RECORDERS,
DETROIT;
■
.
/.
' ii'd
Therefore, the offense set forth above is alleged to be a’second offense; regmrary to MCL 750.520b(2)(c). [750.520B2C]
-,ORA NOTICE ,
;
This is a Tier III Offense under the Sex Offender Registration Act (SORA) 'MCL 28.722(w)(iv).
:ELONY: Life without.parole, mandatory lifetime electronic monitoring; mandatory AIDS/STD testing; DNA to be taken upon
irrest. Life without parole cannot be imposed on a 17 year old defendant per- Graham v..Florida .__US__.(08-7412, 5/17/2010).
’he Court may impose a consecutive sentence under MCL 750.520b(3).
'-OUNT 2: HOME INVASION - 1ST DEGREE
id break and enter, or did enter without permission a dwelling located at 14475' CHELSEA, and, while entering, present in, oi
xiting did commit CRIMINAL SEXUAL CONDUCT 1ST DEGREE, a felony/and while entering, present in, or exiting the
welling MERCEDES DESHIELDS, was lawfully present therein; contrary to;MCL 750.110a(2).. [750.110A2]
ELONY: 20 Years and/or $5,000.00. A consecutive sentence may, be imposed for any other conviction arising out of the
ame transaction.
'
...
OUNT 3: CRIMINAL SEXUAL CONDUCT-THIRD DEGREE (PERSON 13r'15)
id engage in sexual penetration to-wit: PENIS IN GENITAL OPENING, with .a.child who was at least 13 years of age, but
nder 16 years; contrary to MCL 760.520d(1)(a). [750.52.0D1 A]
\
ORA NOTICE
-;i
■ This is a Tier III Offense under the Sex Offender Registration Act .(SORA) unless the court finds that the victim was
olwcen the ages of T3 to 1b inclusive, consented !o the conduct, end the dcteodnnt was not more than 4 years older than the
dim. MCL 28.722(w)(iv).

'
r :
V ;A ...

£xHXBrr~A
v

l-IIV/STD TESTING NOTICE
. .
€.. '■
• 1 ake notice that pursuant to MCI 333.5129, upon bindover to circuit courtor recorder's court, the district court iudae sh-,11
nresence nf HIV nr ,n

the judge determmes therens reason to believe the violatonimAlve^

■ u

defendant. If the district judge determines that testing is not required, upon conviction, the court must order the defendant to be
IcolcU.

,

•

FELONY: 15 Years; Mandatory AIDS/ST.D testing; DNA to be taken upon arrest.
HABITUAL OFFENDER - SECOND OFFENSE NOTICE

1 herefore, defendant is subject to the penalties provided by MCL 769 10" [769 101
£to lTniS„Sen,en“ °"
0[fense " " % term' The maximum *•"*

than

samplesnViCti°n °f 3 fel°ny °r an attemP|;ed felony .court shall order law enforcement to collect DNA identification profiling
1 he complaining witness asks that defendant be apprehended!^! dealt with:according to law.

Warra!

/authorized on

b ' "j 1 ^

Z

.-rff
Complaining witness signature

by:

Date

\

cfgv p7l7.(9 .;

Subscribed and sworn to before

jfiA
fchelle Jarczewski 1370831

n 6-*/'A
/ Date

Judge/Magistrate/Cl erl/'

par no.

~T>

/'Yndisukin

i: v

j

!

-Y
a

i

. i

i •.

:!•
;

-

ExfrE&rr -

;

,

STATE OF MICHIGAN 36TH DISTRICT COURT DETROIT
3rd Judicial Circuit
The People of the State of Michigan
vs
ANTHONY DEAN JONES 82-15711268-01
:
' •.

■ COMPLAINT '
. FELONY ,

2015711268
CASE NO: 2015711268

;
'
•: f'

- C-

I

.;
Offense Information'
Police Agfency / Report No.
82DPSC 1-506030342
Date of. Offfense
JAN 2015 COGPlace of Offense
' 14475 CHELS EA, D ETRO IT
. Complainant or Victim
AJHANIQUE FOREMAN
Complaining Witness'
.INFO AND, BELIEF

STATE OF MICHIGAN, COUNTY OF WAYNE
'
' .
•
The' complaining witness says that on the date and the location stated above, the defendant, contrary to law,
COUNT 1: CRIMINAL SEXUAL CONDUCT - FIRST DEGREE (Person Under Thirteen, Defendant 17-years of age or older)
being 17 years of age or older, did engage in sexual penetration, to-wit: FINGER IN GENITAL OPENING, with a child under 13
years of age; contrary to MCL 750.520b(1)(a) and MCL 750.520b(2)(b).'[7£jO.'520B2B]
■ . . This is a Tier III Offense under.the.SeX Offender Registration Act (SORA)"' MCL 28.722(w)(iv).
^Take notice thS pursuant to MCL 333:5129, upon bindover to circuit courtpr recorder's court, the district court judge shall
order the defendant to be tested for. venereal disease, hepatitis B.infection, and for the presence of HIV or an antibody to HIV if
the judge determines there is reason to believe the violation involved sexual penetration or exposure to a body lui o> ie
defendant. If the district judge determines that testing is not required, upon conviction, the court must order the defendant to be
' . FELONY: Life or any term of years; mandatory minimum of 25 years; lifetime electronic
AIDS/STD
DNA
to
be
taken
upon
arrest.
The
Court
may
impose
a
consecutive:
sentence
under
MCL
7.50.52Ub(J).
.
.testing;

years of age; contrary to MCL 750.520b(1)(.a) and MCL 75O.520b(2)(b). [750.520B2Bj
S This is a Tier III Offense: under the Sex Offender Registration Act (SORA) MCL 28.722(w)(iv)
HlVfake)notice that pureuant to MCL 333.5129, upon, bindover to circuit court,or recorder's c°urtt.the disfegcj courtjudge shaH
order the defendant to be tested tor-venereal disease, hepatitis B infection, ^and for the presence of HIV or an antibody to HIV
the iudqe determines there is reason to believe the Violation involved sexual pfenetration or exposure to a body fluid of the
, defendant. If the district judge determines that testing is not required, uponrco.nviction, the court must order the defendant to _
FELONY: Life or any term of years-mandatory minimum of 25 years; lifetime' elf^onio monitoring, mandatory AIDS/STD
. ■ testing; DNA to be taken upon arrest The Court may impose a consecutive, sentence under MCL -750.520b(3).
COUNT 3: CRIMINAL SEXUAL CONDUCT-SECOND DEGREE (Person Under Thirteen, Defendant 17 years of age or
being 17 years of age or older, did engage in sexual contact with a person under 13 years of age; contrary to MCL
750.520c(1)(a) and MCL 750.520c(2)(b). [750.520C2B]

.

•

This is a Tier III offense under the Sex Offender Registration Act (SORA), MCL 28.722(w)(v).

tested.
electronic monitoring upon' parole from prison;, mandatory AIDS/STD testing; DNA to be taken
FELONY: 15 Years and lifetime
upon arrest.

•

EXHI&XT-A

*.

SECOND- DEGREE (Person Under Thin.

, Defendant 17 years of age or
COUNT 4: CRIMINAL SEXUAL CONDU
,
,
r .
.
'
older)
being 17 years of age orolder,'did engage irt'sexualj contact with a person under 13 years of age; contrary to MCL
750.520c(1)(a) and MCL 750.520c(2)(b). [75O.520G2B]
'
SORA NOTICE
■ This is a Tier III offense under the Sex Offender Registration Act (SORA). MCL 28.722(w)(v).
HIV/STD TESTING.NOTICE •:
'• . •
■
•;
.
......
...
, „ •
Take notjce that pursuantto MCL 333.5129, upon bindoverto circuit court or recorder's court, the district court judge shall
order the defendant to be tested for venereal disease1, hepatitis B infection, and for the presence of HIV or an antibody to HIV if
the iudqe determines there is reason to believe the violation involvedseXual penetration or exposure to a body fluid of the
defendant.' If the district judge determines that testing is not required, upon conviction, the court mustcorder the defendant to be
tested
■
^
*
FELONY: 15 Years and lifetime electronic monitoring upon parole from prison; mandatory AIDS/STD testing. DMA to be taken
' upon arrest.

•

COUNT 5: CRIMINAL SEXUAL CONDUCT-SECOND DEGREE (Person Under Thirteen, Defendant 17 years of age or
. being 17 years of age or ojder, did engage in sexual contact with a person under 13 years of age; contrary to MCL
750.520c(1)(a). and MCL 750.520c(2)(b). [7501520C2B] •
1
SORA NOTICE
Tier
III
offense'under
the Sex Offender Registration Act (SORA). MCL 28.722(w)(v).
This is a

«"

,0 be ■

■ defendant.
1

FELONY: 15 Years and lifetime electronic monitoring.'upon parole from prison; mandatory AlDS/STD testing; DNA to be taken
upon arrest. . .

the maximum term for a first conviction.
i.

. Upon conviction of a felony
samples....

I

The complaining witness asks that defendant-be a
Warrantiuthorized cjn

PCXVK \ A /-(

.

or an attempted felony fc'oUrt shall order law enforcement to collect DNA identification profiling

b'H-'lS

h
i

p|^hended^alia‘dealt with according to law.
1 .. I

Date

Complaining witness signature .

6 - xa

Subscribed and sworn to before rpiXorl

/ '

A

i 21

Date

y

Michelle Jarczewski P7083/1

!

'i
. r\ V

Judge/Magistrate/Clerk

. ''

z

Bar no.

/

Chari©*

/

i

a

■!i

STATEOF MicHKSAN
WARRANT
FELONY

36TH DISTRICT COURT
DETROIT

......... ........ J015711201
CASE NO: 20157112oV’

3rd Judicjal Circuit_

: 0

0

c; 0 ■-} o

i 0

The People of the State of Michigan
. Offer.se Information

Police Agency / Report No.
82DPSC 15Q1.2S0C7B
pice of Offspse ’
JAN-.2015 C0:G
Place of Offence
.-■14475 CHELSEA, DETROIT
ComplainahtjOr Victim
MERCEDES-DESHIELDS

vs
ANTHONY DEAN JONES 82-15711201-01

. Complaining-Witness
INFO AND BELIEF
STATE OF MICHIGAN, COUNTf OF Wayne
To any peace officer or court officer authorized to
court stating that,on. the date'and the location sf-eH ai^rkethrr~St-: Tf!e comPMining witness has filed
a sworn complaint in this
stated above, the Defendant^;,-.ebntrary to law,
COUNT 1:
M engage In

(DUR'NG FELON^

^.sss^r ’hvo*^-—
50RA NOTICE
This is a

iIV/STDTE5TlNGON0TOEUndBr",eSeXOffendSrR egistration Act (SORA) ■ MCL 28.722(w)(iv).

Take
■rder the defendant'to betelted^rvfnerelfdi’sease teST B circu?. c°urt,of,recorder’s court, the district court judge shall
ie judge determines there is reason to believe^vIoK ntnSJf

^ ^ presence of HIV or an antibody to S if

efendant.
jsted.
ELONY: Life or
POn arrest The S'mTl^poTe
consecutive sentence

AIDS/STD <"*W

to be taken

ECOND OFFENSE NOTICE
ETROIT;Urther aPPeam9 thai °n 4/2/88' ?aid defendant was previously convicted of MCL 750.520B1A, in RECORDERS,
DRA NOTfiCE 6 0ffenSe Set forth above ls sieged to be a second offense; contrary to MCL 750.520b(2)(c). [750.520B2C]
ELONY-

ifeTwith out ^a^-o I

m^n d a toryN ife time*

Registration Act (SORA)' ^CL 28.722(w)(iv). ■'

rest. ..Life without parole cannot be imposed on
ie Court may impose a consecutive sentence under MCL °50 520b[3) '

™ V'

'

^ DNAto be W»n upon
3 —1JS— (08'7412, 5/17/2010).

DU NT 2: HOME INVASION - 1ST DEGREE
I
ting did commit CRI.MINAL^SEx'tJAL^Ol^^STJDEG^REE5^ f f 14475 C^LSEA' and. while entering, present in,' or
elling MERCEDES DESHIELDS, was lawfully oreleH fhS^' - .felon,y' aad.'Whlle entering, present in, or exiting the
LONY: 20 Years and/or $5,000 00- A^secEK^^
[750.110A2]
ne transaction.

•

sentence may be imposea.ror any other conviction arising out of the

•UNT 3: CRIMINAL SEXUAL CONDUCT - THIRD DEGREE /PERSON 13' iAv
engage in sexual penetration to-wjf PENIS IN GENITai npSwMA°NI3"'1'3'

1^10 years, contrary ,o MCL TSaraoddxTpSSfi ™^ ^ ‘

child who was at least 13 years of age, but

^ WF“»'
im. MCL 28.722(w)(iv).

’

that tbe v,c,lm was

6 COn Uct' ana the dcT’endant was not more than 4 years older than the

Cxlvbi't ' B>
HIV/STD TESTIN-G NOTICE

'Tate

©rd ea r~

W

tt~)Q

•:

J

/

V

y*y°. *=*?»»*

*•

«***. sm,

■STcT "thedis,rlc,Jud9ad—slhat—FELONY: 15 Years; Mandatory AIDS/STD testing; DNA to be taken

upon arrest

HABITUAL OFFENDER - SECOND OFFENSE NOTICE

the
Therefore, defendant is subject to the penalties provided by MCL 769.1C. [769.101
One and one-half times the maximum sentence on primary offense or a lesser term. The maximum penalty cannot be less than
the maximum term for a first conviction.
saPmplesnV'Ctl0n °f 3 fe'°ny ^ 30 attempted fe,ony court shal1 ordef law enforcement to collect DNA identification

Date

(SEAL)
Judge/Magistrate

Bar no.

!

.'If
Lii\

profiling

Exhibii '£>

y\i-. '*:■

-..

';
STATE OF MICHIGAN

2015711268
CASE NO: 2015711268

WARRANT
36TH DISTRICT COURT
DETROIT
3rd Judicial Circuit

FELONY

The People of the State of Michigan

Offense Information
Police Acj.eney / Report No.
: 02DPSC 1505030342
Date of Of Ip nse
JAN 2015 i6DG
Place of Offense
14475 Ch'E'.LSEA, DETROIT
Complain,ant or Victim
AJHANIQUE FOREMAN
Complaining Witness
. INFO AND RELIEF

vs
ANTHONY DEAN JONES 82-15711268-01

STATE OF MICHIGAN, COUNTY OF Wayne
To any peace officer or court officer authorized to make arrest: The complaining witness has filed a sworn complaint in this
court stating that on the date and the location stated above, the Defendants), contrary to law,
COUNT 1: CRIMINAL SEXUAL CONDUCT - FIRST DEGREE (Person Under Thirteen, Defendant 17 years of age or older)
being 17 years of age or older, did engage in sexual.penetration, to-wit: FINGER IN GENITAL OPENING, with a child under 13
years of age; contrary to MCL 750.520b(1)(a) and MCL 750.520b(2)(b). [750.520B2B]
SORA NOTICE
,
...
This is a Tier III Offense under the Sex Offender Registration Act (SORA) MCL 28.722(w)(iv).
HIV/STD TESTING NOTICE
•A
(i :
Take notice that pursuant to MCL 333.5129, upon b.indover.to circuit court or recorder's court, the district court judge shall
order the defendant to be tested for venereal disease, hepatitis'B infection^ and for the presence of HIV or an antibody to HIV if
the judge determines there is reason to beiieve the violation involved sexual,penetration or exposure to a body fluid of the
defendant. If the district judge determines that testing is not required, upon conviction, the court must order the defendant to be
tested.
FELONY: Life or any term of years; mandatory minimum of 25 years; lifetime electronic monitoring; mandatory AIDS/STD
testing; DNA to be taken upon arrest. The Court may impose a consecutive sentence under MCL 750.520b(3).
COUNT 2: CRIMINAL SEXUAL CONDUCT - FIRST, DEGREE (Person Under Thirteen, Defendant 17 years of age or older)
being 17 years of age or older, did engage in sexual penetration, to-wit: FINGER IN GENITAL OPENING, with a child under 13
years of age; contrary to MCL 750.520b(1)(a) and MCL 750.520b(2)(b). [750)520B2B]
SORA NOTICE
;. C
This is a Tier III Offense under the Sex Offender Registration Act (SORA) MCL 28.722(w)(iv).
HIV/STD TESTING NOTICE . .
Take notice that pursuant to MCL 333.5129, upon bindover to circuit court or recorder's court, the district court judge shall
order the defendant to be tested for venereal disease; hepatitis B infection, and for the presence of HIV or an antibody to HIV if
the judge determines there is reason to believe the violation involved sexual penetration or exposure to a body fluid of the
defendant. If the district judge determines that testing is not required, upon conviction, the court must order the defendant to be
tested.
FELONY: Life or any term of years; mandatory minimum of 25,-years; lifetime: electronic monitoring; mandatory AIDS/STD
testing; DNA to be taken upon arrest. The Court maylrripose a consecutive sentence under MCL 750.520b(3).
COUNT 3: CRIMINAL SEXUAL CONDUCT - SECOND DEGREE (Person-Udder Thirteen, Defendant 17 years of age or
older)
being 17 years of age or older, did engage in sexual contact with a person under 13 years of age; contrary to MCL
750.520c(1)(a) and MCL 750.520c(2)(b). [750.520C-2B]
SORA NOTICE
This is a Tier III offense under the Sex Offender Registration Act (SORA).''MCL 28.722(w)(v).
HIV/STD TESTING NOTICE
■
; ;
Take notice that pursuant to MCL 333.5129, upon'bindover to pircuit courtor recorder's court, the district court judge shall
order the defendant to be tested for venereal disease, hepatitis B infection,-and for the presence of HIV or an antibody to HIV if
the judge determines there is reason to believe the violation involved sexual penetration or exposure to a body fluid of the
defendant. If the district judge determines that testing is not required, upon<cpnviction, the court must order the defendant to be
tested.
'
FELONY: 15 Years and lifetime electronic monitoring upon parole from prison; mandatory AIDS/STD testing; DNA to be taken
upon arrest.

Exhibit '5

«•

SECOND DEGREE (Person Under Thir....... Defendant 17 years of age or
COUNT 4: CRIMINAL SEXUAL CONDU.
older)
being 17 years of age or older, did engage in sexual contact with a person under 13 years of age, contrary to MCL
750.520c(1)(a) and MCL 750.520c(2)(b). [750.520C2.B]
J
SORA NOTICE
This is a Tier III offense under the Sex Offender Registration Act (SORA), MCL 28.722(w)(v).
HIV/STD TESTING NOTICE
Take notice that pursuant to MCL 333.5129, upon bindover. to circuit court or recorder's court, the district court judge shall
order the defendant to be tested for venereal disease, hepatitis Lrinfection, and for the presence of HIV or an antibody to HIV if
the judge determines there is reason to believe the violation involved sexual penetration or exposure to a body fluid of the
defendant. If the district judge determines that testing is not required, uponConviction, the court must order the defendant to be
FELONY: 15 Years and lifetime electronic monitoring upon parole Tom prisqjn; mandatory AIDS/STD testing; DNA to be taken
upon arrest.
COUNT 5: CRIMINAL SEXUAL CONDUCT - SECOND DEGREE (Person Under Thirteen, Defendant 17 years of age or
being 17 years of age or older, did engage in sexual contact with a persomunder 13 years of age; contrary to MCL
750.520c(1)(a) and MCL 750.520c(2)(b). [750.520C2B]
'
SORA NOTICE
This is a Tier III offense under the Sex Offender Registration Act (SORA)/ MCL 28.722(w)(v).
HIV/STD TESTING NOTICE
Take notice that pursuant to MCL 333.5129, .upon bindover to circuit court or recorder's court, the district court judge shall
order the defendant to be tested for venereal disease, hepatitis B infection, and for the presence of HIV or an antibody to HIV if
the judge determines there is reason to believe the violation involved sexual penetration or exposure to a body fluid of the
defendant. If the district judge determines that testing is not required, upon conviction, the court must order the defendant to be
tested
FELONY: 15 Years and lifetime electronic monitoring upon parole from prison; mandatory AIDS/STD testing; DNA to be taken
upon arrest.
HABITUAL OFFENDER-SECOND OFFENSE NOTICE
Take notice that the defendant was previously convicted of a felony or an attempt to commit a felony in that on or about
4/22/88, he or she was convicted of the offense of CRIMINAL SEXUAL CONDUCT 1ST in violation of 750.520B1 A in the
RECORDERS Court for DETROIT, State of Ml;
Therefore, defendant is subject to the penalties provided by MCL 769.10,= [769.10]
One and one-half times the maximum sentence on primary offense or a lesser term. The maximum penalty cannot be less than
the maximum term for a first conviction.

'

Upon conviction of a felony or an attempted felony court shall order law enforcement to collect DNA identification profiling
samples.

;

Upon examination of the complaining witness, there is probable cause to believe that the offense charged was committed and
the Defendant committed the offense. THEREFORE, IN THE NAME OF THE PEOPLE OF THE STATE OF MICHIGAN, I
command you to arrest and bring the defendant before the Court immediately.
-.1

(SEAL)
Date

Bar no.

Judge/Magistrate

;
:
i;

